No.

91 -569?
IN THE

FILED
SEP 0 2 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK
SUPREME COURT. U-S.

SHAWN MAYREIS

11

— PETITIONER

(Your Name)
vs.
BOBBY LUMPKIN DIR. TDCJ

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court'-df Appeals for the Fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

SHAWN MAYREIS
(Your Name)
111 FM 3497
(Address)

Woodviller Texas 75990
(City, State, Zip Code)
N/A
(Phone Number)

QUESTION(S) PRESENTED

I.

This Court has established that a defendant's right to a

public trial extends to voir dire.

When counsel's defective

advice given in advance of trial results in an unlawful and total
closure of the courtroom to a defendant's family members prior to
the jury selection, can prejudice be presumed?
II. In the context of a public trial violation where defense
counsel does not know the law and is the sole party responsible
for barring family members from the courtroom before the jury
selection, should that attorney be allowed to circumvent the
Constitution by seeking shelter under Strickland knowing that the
burden will be placed squarely on the defendant to demonstrate
either prejudice or fundamental unfairness when he later raises
the error via an ineffectiveness claim?
III. If the public trial error complained of could not have >
possibly been objected to at trial, nor raised on direct review,
nor remedied by thectrial court because defense counsel was
solely responsible for the court closure in the first place;
and it was later determined and admitted to by counsel that he
mistakenly caused that closure as a result of not knowing the law;
is the defendant essentially being denied the right to effective
assistance of counsel when counsel breaches the duty of loyalty,
perhaps the most basic of his duties?

LIST OF PARTIES

[X| All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
• MAYREIS V. LORIE DAVIS, DIR. TDCJ, U.S. District Court for the
Souther District of Texas.- Judgment entered July 10, 2020.
* MAYREIS V. BOBBY LUMPKIN, DIR. TDCJ, U.S. Court of Appeals for
the Fifth Circuit. Judgment entered April 05, 2021.

•i

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-5

REASONS FOR GRANTING THE WRIT

6-21

CONCLUSION

22

INDEX TO APPENDICES
APPENDIX A

Decision of United States Court of Appeals for the
fifth Circuit

APPENDIX B

Decision of the United States District Court for the
southern district of Texas

APPENDIX C Affidavit of trial counsel
APPENDIX D . Trial counsel letter
APPENDIX E

APPENDIX F

j

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

See Attached Table of Authorities (Cases)

STATUTES AND RULES
20 U.S.C. § 2253 (c)(2)

4

USCA § 3006A........................

15

Fed. R. Crim. P. 44

15

OTHER
Black's Law Tenth Edition.1.

15, 17

TABLE OF AUTHORITIES
CASES:
Arizona v. Fulminante,
499 U.S. 310 (1991)
Cuyler v. Sullivan,
466 U. S . ,at 346

6, 18

100 S.Ct. 1708 (1980)

17

Gonzalez-Lopez,
548 U.S. 149 (2016)

14

Harrington v. Richter,
562 U.S. 86, 105 (2011)

6

Marzullo v. Maryland,
561 F.2d 540 (4th Cir. 1977)

16

Michel v. Louisiana
350 U.S. 101 76 S.Ct. 158 (1955)

18

Powell v. Alabama,
287 U.S. at 68-69, 77 L.Ed 158, 53 S.Ct. 55,
84 ALR 527 (1932)....................................................

18

Presley v. Georgia
558 U.S. 209 (2010)

7- 9

Screws v. United States,
325 U.S. 91, 129-130 (1944)

6

Slack v. McDaniel,
120 S.Ct. 1595, 1603-1604 (2000)

4

Strickland v. Washington,
466U.S.668 (1984)

6-7, 12, 16, 19

Sullivan v. Louisiana
508 U.S. 275 181, 113 S.Ct. 2078, 124 L.Ed22d
182 (1993)..

19

United'iStates v. Cronic,
466 U.S. 658-660 80 L.Ed.2d 657, 104 S.Ct. 2039.... 16
Waller v. Georgia,
467 U.S.at 45
31 (1984)........

48, 104 S.Ct. 2210, 81 L.Ed.2d

Weaver v. Massachusetts,
582 U.S.
(2017)

8- 10
5-6, 12, 20

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[Xl is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet, reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appear s at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
APR 05, 2021
was
[x] No petition for rehearing was timely filed in my case.
t ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitution provides
that:
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury
of the State and district wherein the crime shall have
been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defence.
Section one of the Fourteenth Amendment to the United States
Constitution provides that:
All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law, nor deny
to any person within its jurisdiction the equal protection
of the laws.

3

STATEMENT OF THE CASE
Petitioner Shawn Mayreis was tried and eventually convicted of a Texas
state law offense of capital murder in 2013.

At the outset of his trial, May-

reises trial counsel barred his sister and her husband, as well as Mayreises
mother from attending the jury selection.
App. C.

See Affidavit of trial counsel in

After exhausting all of his remedies in state and federal court, May­

reis attempted to reopen his habeas by way of a Rule 60(b) due to mistake of
law by the U.S. District Court for the southern district of texas in denying
him a certificate of appealability regarding a violation to his Sixth Amendme­
nt right to a public trial.

See App. B.

However, the U.S. District Court

ruled that Mayreis was instead challenging his conviction, and thus determined
that Rule 60(b) motion to be an unauthorized second or successive writ.
App. B.

See

Mayreis then appealed that decision to the United States Court of

Appeals for the Fifth Circuit, in which that court entered a judgment on
April 05, 2021, affirming the U.S. District Court finding based on Mayreises
failure to meet the requisite of a "substantial showing" for a COA under
20 U.S.C. § 2253(c)(2); Slack v. McDaniel, 120 S.Ct. 1595, 1603-1604 (2000).
Contrary to the Fifth Court of Appeals and U.S. District Court's ruling, Mayr­
eis argues that a COA should have issued in his case because not only has he
established a violation of his right to a public trial under the Sixth Amendm­
ent to the U.S. Constitution, but also can establish that jurists of reason
would find it debatable that he has stated a valid claim of a denial of a con­
stitutional right, and find it debatable whether the district court was correct
in its procedural ruling.

Slack, 120 S.Ct. at 1604.

The mere fact that the

Honorable Justices Breyer and Kagan would not require a personalized showing of
prejudice to obtain relief where a petitioner has established a public trial
violation and later raises the error via ineffective assistance *of counsel
4

proves Mayreises assertion correct that he is entitled to a COA.
Massachusetts, 582 U.S.

2017 (Dissent Breyer J., Kagan J.)

5

Weaver v.

REASONS FOR GRANTING THE PETITION
This case presents an issue of national significance: the
fundamental right to a public trial.

More precisely, petitioner

Mayreises trial attorney was the root cause of an unlawful total
court closure when he single-handedly blocked Mayreises family
members from the courtroom during voir dire because he did not
know the law.
This Court has made it perfectly clear that
"Ignorance of the law is no excuse for men in general.
It is less an excuse for men whose special duty is to
apply it, and therefore to know and observe it."
Screws v. United States, 325 U.S. 91, 129-130 (1944).
LEVERAGING THE C0NSTITUI0N
The Strickland Dilemma
Pertaining to defendants in general,!.if "[a]n ineffectiveassistance claim can function as a way to escape rules of waiver
and forfeiture and raise issues not presented at trial," thus un­
dermining the finality of jury verdicts, Harrington v. Richter, .
562 U.S. 86, 105 (2011); then counsel must not be allowed to esc­
ape the Constitutional protections afforded to Mayreis under the
public trial guarantee when he violates that right, and then runs
for cover under Strickland v. Washington, 466 U.S. 668, (1984) in
reliance upon this Court's holding in Weaver, 582 U.S.

(2017),

to aid and abet that incompetence; especially, when counsel's un­
professionalism "affects the framework within which the trial proceeds."

Arizona v. Fulminante, 499 U.S. 310 (1991).

Indeed,

trial counsel should not be permitted to leverage the Constituti-

6

on to tip the scales in his favor by upsetting the proper balance
between fair and just trials and the importance of finality of
judgments through. the artful use of Strickland, supra; Weaver,
supra, at p. 16.

This crafty maneuvering by counsel of both the

Constitution and Strickland entagles Mayreis in a bind:

on the

one hand, counsel completely hamstrings Mayreises ability to obj­
ect to the error at trial.

And on the other hand, the .’trial cou­

rt is rendered powerless to remedy the defect because counsel has
not made the court aware of his unilateral decision to bar Mayreses family from the jury selection.

Hence, the "impossibility"

of the structural error being preserved for direct review.
By all accounts, trial counsel deprived Mayreis of his basic
intangible right to a public trial to have his family's show of
support, but also effectively undermines his ability to obtain
relief in the context of an ineffective-assistance-of-counsel cl­
aim.

Instead of counsel, for instance, having to account for his

own deficiency, Mayreis must now bear the brunt of Strickland's
rigorous testing.

Question: if, therefore, courtroom closure is

to be avoided with few exceptions, can an attorney simply close
the courtroom to family members based on not knowing the law, th­
at Mayreis has a fundamental right to have his family members pr­
esent during the jury selection, and that still be a valid and
acceptable reason to justify an unconstitutional court closure in
the Court's view?
The Supreme Court's Concern
A.

Arbitrary Court Closure
If anything

this Court in Presley v. Georgia, 558 U.S. 209
7

(2010), expressed concern that the state court's reasoning would
allow the courtroom to be closed during jury selection "whenever
the trial judge decides, for whatever reason, that he or she wou­
ld prefer to fill the courtroom with potential jurors rather than
spectators." Id., at 215 (internal quotation marks omitted).
Of primary concern after Presley's uncle was excluded from
the voir dire in which Presley's counsel objected to the exclusi­
on of the public from the courtroom, the state court reasoned
"[t]here just isn't space for them to sit in the audien­
ce." Id. at 210
The Court explained its ruling further
"There's no, really no need for the uncle to be present
during jury selection... [w]e have 42 jurors coming up.
Each of the rows will be occupied by jurors. And his
uncle cannot sit and intermingle with members of the
jury panel." Id., at 210
After Presley was.oconvicted y he moved for a new trial based on
the exclusion of the public from the juror voir dire in which the
trial court denied the motion commenting that
"it's up to the individual judge to decide"...."It's
totally up to my discretion whether or not I want fam­
ily members in the courtroom to intermingle with the
jurors." Id., at 211
Needless to say, Presley appealed his way all the way to the U.S.
Supreme Court and received an automatic reversal because the State
court did not adhere to the four requirements prescribed by
Waller v. Georgia, 467 U.S. at 48 (1984).
B. Balance of Interests
While the accused does have a right to insist that the jury
selection be open to the public, the right to an open trial may
give way in certain cses to other rights or interests, such as
8

the defendant's right to a fair trial or the government's intere­
st in inhibiting disclosure of sensitive information.
467 U.S.: at 45, 104 S.Ct. 2210, 81 L.Ed.2d 31.

Waller,

Such circumstanc­

es will be rare, however, and the balance of interests must be
struck with special care.

Ibid.

Waller provided standards for

courts.to apply before excluding the public from any stage of a
criminal trial:
(1) [T]he party seeking to close the hearing must advance an
overriding interest that is likely to be prejudiced, (2) the
closure must be no broader than necessary to protect that
interest, (3) the trialocourt must consider reasonable alte­
rnatives to closing the proceeding, and (4) it must make fi­
ndings adequate to support the closure." Id., at 48, 104
S.Ct. 2210, 81 L.Ed.2d 31.
1.

Mayreis in connection with Presley

Mayreis hammers home this connection with Presley, Id., at
210-211, because of the striking similarity involving the exclus­
ion of family members based on a seating issue and for a lack
thereof.

Specifically, Mayreises trial attorney used in part the

same rationale as the state court in Presley, supra, to deny
Mayreises right to have his family /members present during jury
selection.

For example, in a letter dated May 16, 2013, in which

Mayreises trial attorney responded to his request i;f or the accomm­
odation of his family's presence in preparation of the voir dire
slated for August 2, 2013, Mayreises trial attorney stated that
"Now with respect to the trial date, we are actually
set for 'Pre-trial Conference' on August 1st and 'Jury
Selection' on August 2nd. During jury selection your
family will not be allowed in the courtroom because
there will be no room for them to sit. The jury panel
will fill up the entire room."
See App. D Trial counsel's letter

9

Mayreis contends that if the state court judge in Presley
was held to the Waller standard to answer for an unlawful court
closure due to lack of seating in the courtroom

then Mayreises

trial attorney should also be held to, at the very least, Waller's
test for one solid reason: Accountability,

Because Mayreises at-

torny was the party seeking to close the hearing, he must be held
to account for the overriding interest that is likely to be prej­
udiced .
Can ignorance of the law be\:a sufficient reason to validate
any court closure for all intents and purposes?

If not, then in

the Mayreis case, prejudice can be presumed.
Trial counsel cost Mayreis his Constitutional right to a pu­
blic trial, and in turn, to the detriment of the potential trial
court remedy to counterbalance that deficiency,

Which is all the

more reason why the Mayreis case warrants a presumption of preju­
dice with respect to the public trial right under the Sixth Amen­
dment to the United States Constitution.
IGNORANCE OF THE LAW
The Universal Effect of Its Rtiach
Though there exist an inherent subjectivity in the method of
identifying prejudice, and the law prides itself on being object­
ive and determinable - how does one quantify ignorance of the law
relative to its universal effect on the judgment?

More specific­

ally, where counsel's unwise decision to infringe Mayreises Cons­
titutional right is not based on any sound trial strategy but in
the sphere of his own subjective reasoning to spare Mayreises fa­
mily the expense of travel in spite of the fact that he and his
10

family let it be known to counsel that they explicitly wanted to
be present at jury selection,

For example, Hayreises trial atto-

rney in his own affidavit to the court states that
"First of all, I was not aware that a defendant's family
had an absolute right to watch jury selection and that the
trial court had a duty to make certain that there was sea­
ting for the family in the courtroom... I did not know
that was the law and never even mentioned the request to
Judge Krocker or whoever was actually on the bench for the
In my 45 years, all in criminal law and all in
trial .
doing trial work, it has simply never come up. I do indi­
gent defense almost exclusively and the reality is that I
rarelythave family even remotely interested in the trial
at all. I often have to beg family to come.
I always te­
ll family of the importance of the jury seeing that the
defendant has family who are concerned, but it is rare to
actually have family even present for the testimony so
it was clearly my fault that they did not get to see jury
selection. The Judge was never even told of the request."
See App. C Affidavit of trial counsel
A.

No Regard for Fairness and Necessity
Accordingly, Mayreis contends that his trial counsel's pere­

mptory line of thinking was unquestionably devoid of any regard
for fairness and necessity,
simply 'shot down

Point blank: Mayreises trial counsel

his most basic, intangible constitutional right

and cast by the wayside his family's request to be present at the
voir dire predicated on factors that were outside of and irrelev­
ant to Mayreises family situation or even to the Mayreis case.
It is incredulous that trial counsel did indeed block Mayreises
family from jury selection as a result of counsel's previous cas­
es involving former clients and their families lack of interest
or unwillingness to attend voir dire,

It is even more incredible

that counsel did not know that Mayreis even had a right to have
his family members watch the jury selection in addition to not
11

even making Mayreises and his family's request known to the trial
court.
B.

Capitalizing on the Court Closure
1.

Deficiency Deposited

Incredibly, counsel then seeks to capitalize on the court :.
closure by measuring his deficiency against a reasonable probabi­
lity of a different outcome, and thus banking on this Court's ru­
ling in Weaver, supra, to co-sign his actions.

It is, therefore,

incomprehensible that as maestro - counsel can play upon the Con­
stitution by robbing Mayreis of his right, then evade capture to
the tune of Strickland to avoid the peril of impending consequen­
ce.

Not just the public trial guarantee, at stake is also the

Freedom of Speech - the suppressing of it, and thus by extension
the Public at large.
How many criminal cases in America today involve relatives
of defendants who lay claim to their first amendment right to
Freedom of Expression to attend the jury selection process?

Equ­

ally important, how will these types of cases b? adversely impac­
ted moving forward starting with the Mayreis case today that is
now before the Court?
2.

Fully Vested

The implication is clear: if counsel is able to make off with
the plundering of the individual liberties and receive a windfall
vial Strickland's unintended use, he may very well be made the
most powerful officer in the courtroom bar none, a
so to speak.

teflon don

He will be armed with the free rein to dictate who

can and cannot come to jury selection and whether a defendant is
12

allowed to have his relatives present; hence, the 'shutting down'
of the courtroom arbitrarily, fundamental rights subject to the
whim of counsel, and the trampling of those rights at his dispos­
al.

Yet, how will this serve to threaten the dignity of the cou­

rts that will eventually cause the people to lose faith in the
criminal justice system?
C.

No Objection, No Problem
For good measure, it is of the utmost concern that the foll­

owing setup will be a recurring theme played out in courtrooms
across America if Mayreises trial attorney were to retain power
over his right to a public trial:
The Scenario
For reasons unkown, trial attorny does not want his client's
family present at the jury selection.

Counsel is also aware that

his client is too poor to hire a paid attorney as a result of his
indigency, and more than likfely does nbtkknow his rights as a lay­
man of the law.

Counsel then tells his client that his family

cannot watch the jury selection because the courtroom will be pa^
eked full of prospective jurors; and that there will be no room
for them to sit.

Moreover, counsel is fully aware that if his

client ever finds out that he has been duped out of his Constitu­
tional right, he will never wih on appeal thanks to the 'harmless
error analysis'.

By the time his client figures out what happen­

ed, he will not know what hit him.
orance of the law.

Besides, counsel asserts ign­

And when the dust settles, all he has to say

is: I may not have known the law, but it would not bhange the
outcome.

13

J

The ensuing calamitous effect cannot be denied,
this plausible scenario

In light of

what is there to be said forrthe maxim:

ignorantia juris non excusat* and the accompanying asterik (exce­
pting the public trial guarantee) that will assuredly follow if
attorneys are let off the hook in the manner delineated above?
Indeed, Strickland will definitively be seen as the apparatus to
eclipse Constitutional rights with the looming threat on the horizon.
D.

Variables at Play
Though not exhaustive, the following is a list of essentials

that will be adversely impacted by the tentacles of incognizance:
An open and public trial; free speechequal protection of the
law; fair and just trials; assistance of counsel; and the American
an Bar Association standards for attorney conduct.
1.

Incognizance Enormous Footprint

The trickle down effect of incognizance will reasonably give
rise to the assumption that if ignorance of the law has its way
with the courts, where will its footprint end up in society?

In

other words, trials will now be conducted unfairly and behind cl­
osed doors; free speech will be censored and ultimately suppress­
ed; judiciary powers and attorney counduct left unchecked; and
the United States Constitution turned on its head.
In Gonzalez-Lopez, 548 U.S. 149 (2016), this Court determin­
ed that there is difficulty in assessing the error involving a
defendant’s right to a public trial.

Understandably so.

If that

determination uncluded the factoring in of the public trial viol­
ation coming as a result of an attorney's deficiency not knowing

the law, it would increase the difficulty in assessing the error
exponentially because of the moral aspect inherently built into
the Constitutional framework.

The collection or system of rules

of conduct will be thrown into disarray inasmuch as the law was
established to protect against the excuse of breaking it.
2.

Reasonable Representation Defined

Since the law was created to establish order, this bespeaks
effective assistance of counsel to mean: a conscientious, meanin­
gful representation, whereby the defendant is advised of all rig­
hts and the lawyer performs all required tasks reasonably accord­
ing to the prevailing professional standards in criminal cases.
Black's Law Tenth Ed.; see Fed. R. Crim. P. 44; USCA § 3006A.
Conversely, in determining whether a criminal defendant rec­
eived ineffective-assistance-of-counsel, courts generally consid?
er several factors: (1) whether the lawyer previously handled cr­
iminal cases; (2) whether strategic trial tactics were involved
in the allegedly incompetent action; (3) whether, and to what ex­
tent, the defendant was prejudiced as a result of the lawyer's
alleged ineffectiveness; and (4) whether the ineffectiveness was
due to matters beyond the lawyer's control.

Black's Law Tenth Ed.

It is a given that reasonable representation does not guara­
ntee an error-free trial to the defendant.

But it is imperative

under any reasonable standard that counsel is expected to know the
law.

Acting as a defendant's diligent advocate, reasonably comp­

etent assistance provides that counsel know the law; or that cou­
nsel's representation must be "within the range of competence de­

15

manded of attorney's."

Marzullo v. Maryland, 561 F.2d 540 (4th

Cir. 1977).
E.

Reliability of Result
Thusly, in an ongoing effort to improve the administration

of justice, the Strickland, 466 U.S. at 688, 695, court establis­
hed a two-part test to measure the effective assistance of defen­
se counsel with the ultimate focus of the inquiry on the reliabi­
lity of the proceeding.

By definition, Strickland's test for pr­

ejudice is whether counsel's conduct so undermined the proper fu­
nctioning of the adversarial process that the trial cannot be re­
lied on as havingg produced a just result; meaning a defendant
must demonstrate "reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have
been different."

Id. at 694.

If the attorney's error complained

of had no effect on the outcome , there will be no setting aside
of the judgment. Id. at 691.
F.

Presumption of Prejudice
This Court, however, alleviates the insurmountable task on

the part of defendants from having to make this affirmative show­
ing where the accused has been denied of counsel altogether: an
actual or constructive denial of counsel, state interference with
counseljs assistance, or counsel that works under a conflict of
interest. Id. at 602; United States v, Cronic, 466 U.S. 658-660
80 L.Ed.2d 657, 104 S.Ct. 2039.
Here, Mayreis contends that his trial counsel was in breach
of his fiduciary duty and loyalty because he led him to believe
what was untrue - that his family could not come to the jury
16

selection because there was no room for them to sit.

More signi­

ficantly, Mayreises trial counsel's defective advice was not just
incorrect, it resulted in a structural error predicated on the
daulty premise of his own conclusory, ill-advised belief - obliv­
ious to a defendant's public tridi right - that is insufficient
to pass Constitutional muster.

And therefore, it can be said

that Mayreises trial counsel was operating under a conflict of
interest^which warrants a presumption of prejudice.
WHAT CONSTITUTES FIDUCIARY DUTY
Fiduciary duty by definition is: A duty of utmosttgood faith,
confidence

and candor owed by a fiduciary (such as a lawyer) to

the beneficiary (such as a lawyer's client).

In essence, fiduci­

ary duty is indicative of a fiduciary relationship between an
attorney-client that requires an unusually high degree.of care.
In that regard, fiduciary relationships usually arise in one of
four situations: (1) when one person places trust in the faithful
integrity of another, who as a result gains superiority or influ­
ence over the first, (2) when one person assumes control and res­
ponsibility over another, (3) when one person has a duty to act
for or give advice to another on matters falling within the scope
of the relationships or (4) when there is a specific relationship
that has traditionally recognized as involving fiduciary duties.
This suggests thht if counsel's function is to assist the defend­
ant, and hence counsel owes the client a duty of loyalty, a duty
to avoid a conflit of interest,Cuyler v. Sullivan, 4666U.S., at
346, 100 S.Ct. 1708 (1980), counsel's most basic duty requires
that he know the law so as to provide adequate legal assistance.
17

especially involving fundamental rights, such as Mayreises public
trial right.

If the objective of counsel’s function is to make

the adversarial testing process work in a particular case, how
the is Mayreises trial counsel’s overarching duty to advocate
his cause - to bring to bear such skill and knowledge as will re­
nder the trial a reliable adversarial testing process - when that
error involves certain, basic constitutional guarantees that sho­
uld define the frame work within which the trial proceeds.

See

Powell v. Alabama, 287 U.S., at 68-69, 77 L.Ed 158, 53 S.Ct. 55,
84 ALR 527 (1932); Arizona v. Fulminante

499 U.S. 279, 310 (1991).

Although defense counsel is given leeway to make sound, strategic
choices in providing effective assistance Michel v. Louisiana,
350 U.S. 101, 76 S.Ct. 158 (1955), they are not exempt from basic
principles of fundamental fairness, nor can that assistance be
wielded in a manner that violates a defendant’s rights.
As a simple matter of fundamental fairness, should not it be
the one who encroaches the public trial right who has to show why
he is justified in doing so?

Moreover, should not the burden of

proving the justification of an action thht is adverse to another
always fall on whoever is trying to take that action, especially
involving the moral imperative not to restrict a client’s ability
to make well-informed choices?

The entire cruxzof Mayreises pub­

lic trial claim entails the one caveat: ignorance of the law.
This only compounds the error because it seeks to foreclose an
important remedy intended to punish and deter Mayreises trial cor.
unsel’s deficient actions that run afoul of the United States
18

Constitution.

Still worse, Mayreises trial counsel failed to up­

hold the requirements of the law, his fiduciary duty and moral
obligation by exercising poor judgment that violated such a basic
protection in which this structural error's precise effects are
unmeasurable, but'.iwithout which a trial cannot reliably serve its
See Sullivan v, Louisiana, 508

function respecting that right.

U.S. 275, 281, 113 S.Ct. 2078, 124 L.Ed.2d 182 (1993).

Thus, as

a practical matter, and where the evidence of unconstitutionality
is said to be unquantifiable and inherently indeterminate, Id.,
at 281-282

Mayreises trial counsel is no longer bound by the Con

nstitution unless he can show specific injury resultant of that
public trial violation.

So, even though the public trial right

is structural in nature

but subject to rare exceptions, can ign­

orance of the law be the deciding factor to strip a defendant of
this most critical right in favor of the finality of judment as
opposed to fundamental fairness?

This has allowed Mayreises tri-

al attorney to throw off Constitutional constraints and infringe
upon Mayreises public trial guarantee,

And Mayreises trial atto-

rney's justification for doing so: "It wouldn't change the outcome."

See Affidavit for Trial Counsel App. C.

Moreover, Maryeises

trial attorney breaches his fiduciary duty by imposing his will
acting in his own interest, violates Mayreises public trial right,
forecloses any opportunity to remedy the defect by the trial court
in addition to seriously undermining Mayreises ability to obtain
relief via habeas corpus due to non-preservation of error for fa­
ilure to object, and ultimately attempts to justify his actions
under the benchmark of Strickland's rigorous testing.
19

What makes Mayreises trial counsel's error so egregious and
significant is that he violates the Constitution, but is now see­
king to garner the protections of it; all of this stemming from
ignorance of the law.

How then is this a duty of utmost good fa­

ith, trust, and candor owed by a fiduciary - Mayreises trial
counsel - to his client, Mayreis?

For instance, from what the

record reflects, and what we can definitely see is that Mayreises
trial attorney, who inflicts irrepairable harm by thrusting down
and laying waste to Mayreises natural right, is absolutely not
working in his best interest.

Yet, with the benefit of hindsight

facing the potential consequence, and from what we cannot see,

,

Mayreisee trial attorney in his affidavit claims to involve him
in the jury selection process to be the ultimate decision-makers
in deciding every single strike to the prospective jurors.

Stat­

ed differently, Mayreises trial counsel blocks Mayreises family
from attending the jury selection, but yet supposedly goes above
and beyond by allowing Mayreis to participate in his own jury se­
lection process.

See Affidavit p^,2 App. C.

And then contradicts

himself by stating that "the courtroom was not closed, not b[y]
me, and not by the Court."
sense does that make?

Affidavit p. 3 App. C.

What kind of

How can defense counsel supposedly admit

to violating Mayreises fundamental right by restricting his fami­
ly members access to voir dire, and straightforwardly claim that
he did not close the courtroom?

This type of caprice is a class­

ic example of an attorney who gets caught with his hand in the
cookie jar, then tries to worm his way out of trouble by finagli­
ng this Court's precedent in Weaver, supra, to gut his responsib20

ility.

If the right to a public trial is to be respected and

mean more than a right in name and appearance only, this Court
should grant the writ of certiorari to protect the sanctity of
the fundamental nature of that right, and to provide clear guida­
nce to the lower courts when that most critical right is violated
by trial attorneys based on their ignorance of the law.

21

Nowhere in our principles of justice, nor society's expecta­
tions, nor the court system's sense of fair play and decency can
tolerate anything short of holding Mayreises trial attorney acco­
untable for his actions.

Ignorance of the law excuses no one.
i

Thus, this Court should grant the writ of certiorari to resolve
violations of the right to a public trial by warranting a presum­
ption of prejudice when raised via ineffective assistance of cou­
nsel claim to ensure that trial attorneys will adhere to the exp­
ress commands of the Sixth Amendment, and abide by their fiduciar
ry duty and loyalty owed to their clients in every criminal case.
CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
v

Date:

September 2

7.071

22

